12/B9/2BBa    B9: 14      BBBBBBBBOB                                LOS ANGELES DIG                                        PAGE   02/03



                  NATIONAL RAILROAD PASSENGER CORPORATlON
                       OFFICE OF THR INSPECTOR GENERAL
                         OFFICE OF THE INVESTIGATIONS

                                                CLOSING REPORT


           CA-SE NUlV/DEIl:       08-09?

        DATE:                     DM(~mhel'      9, 200R

        TO:
                                  Deputy Inspector OcilerallColU1sel

        Ji'lWM:
                                  Special Agent, T-AX Field Of.l1ce

        JlACKGROUND:
        On August 1,2008, Offieo of the Inspector          (1~~n~era~'I~(~"~O~IO~'~')~'iOifniCie=O:f:,~iii
                      ~;.i~Ic:~ from an arionymous sourec' that
                      •            had been nllowillg
                                       tima "01' all ullauthorlzed purpose. Specifically,     SOIIlCU

                     ~~~~~;~~"~~~~ to use his accumulated sick ,leave to attend tho State of
                     ~:           Olllecr Acndemy. Aftol' illve.tignt.ing t.hls compliant. the 010 was able
       to sustain the allogation.

       II'INDlNG OF FACTS:
         On August 18, 2008, or Agonts In(erviewed     regarding             II'ec'~;"lno sick timo ,
       ' pay from Amtrak while anendlns , the State of           CO/Te.,tic.nul Academy, whllo
        _ w a s an employee oftho Stnte o f _

                       th~tshe was aW~l'e th~t _              had ~ought employment with tho State of
                     tltat he would bo leaving Amtrak ill Pebntary 2008,            further ~tated that she
       had illfonncd             that jf he had litileo to graduate the academy, he would be .".lIo.,.ve rl t.o
       return to Amtrak as a _ .                        stated that she would be able to keep _                 iiii
       with Amtmk by 3110wlns him to usc his            p~rsonol,   holicll\Y find ;t('.cmmllhltcr( unused sick time
       while he was attending the acado my.            said that            was .11 experlelleed _
       _      with thirty-ono (31) years experience and that sho did not wnnt (0 /,oplaco him with a less
       oxpel'ienced employee, ifshc could avoid doing so. '

       On A\\gust 1S, 2008, Ol     Agallt:-l   intervlewod with                reGarding his rccelvin6   f'I:<r.e.'\~iVA
       sick timo pay frO/II Amtrak while employed and attcndillg tho Stato of                         Cotnctional
       AGIl(!omy.                                            '

                         that, when he                          that ho had been accepted to tlie State of
                        •.    I   AGa(l~my,                       COtlt~ctcd      and iu.fol1!1cd her th.t he
       would be Icaving Amtrak in February 2008.                 stated that he wanted to snfeguard his job
       at Amtrak in the Avent that ho failed the academy.                   that he had told          that he
       had worked O\lt a daily pay schedule iha! allowed him to u~e all of his earned ~acatlo", holiday
       and sick timo which covered nearly the entiro timo that he would bo attending tho academy,
                    'aid             thought It Was a (lood tdea and told him tu givo Jiis s;'hcdulo to the
       time keepel'S                    tell them that she,had approved tha schedule.
12/09/2008     09:14               0000000000                                    LOS ANGELES DIG                                         PAGE   03/03




        • • • • ~aid that he believe he didn't do anything wrong since he had checked with his
        supervisor and that he Ilad acculnulated atl of liis vacation, I\Qlloay and sick tlmo Ihal he wn~
        allowed to use that time, but statcd that if Amtrak believed tlmt he w(ongf\llly received payment
        for hio unusod slok tlmo, ho would repay AmtrAk.                wa. eOllccnled thnt ifthl~ incident
       'was made kllown to hi~ current employeo (State of                  Dopartment of Corrections) he
        would bo term itlatcd.

        01 estimated
        he wu. nol enliUl:(1 II)
                                 ~!.v
                                 "'
                                                       ••   o.v.e.r~Piald $3,964.40 for sick time and (I)lifonn allowallce tlmt
                                                                       said that ho would be willing to ropoy tho OInount timt
        Amtrak believed he owed.

       , 01 had sholVecl and had both • • • and~read TeV Agl'eem.ent Rule 1119 Section (d)',
         Rule 1121 "Leave of Absence" Sections (~) &, (d) .                               '

        Oiiill.s.e.p.teiiimiibiieri23. 2008, Ollssucd a management report to
        •          •                recommended th"t.        ho disciplined

        On December 1,200801 sen I a th'irty (30) clny notice to _                               for failure in \'6sponcllns back to
        01U 011 tlte managemont report that had been sent to him.

        On    Dco.mb~1'        8,   ~008,     0.1 reoeived a response from
                           :hai• •1 was suspended fol' 30 days.
        RECOMMENDATION:
        Close Ihls case.             had agreed with or that _had OVCI' stopped her authority nIId
        $u"p""ll"~ Iiol' willlUuL pity fu, a period l)flhi,.ty (30) doys, Qffoelive September 29,2008 through
        Octobel' 28, 2008.

                                                                                              had drafted a lettel' requesting
                                   re·pay Amtrot<        fOI' pay~nent   for the misuse of siel< t,ime in which he received




       Chief Jns!,cctol'



       Deputy 1nspectol' General/Counsel




       I Rule 1119 Sections (d) fulW.!Q):eos reSigning to accopt ~n AllImiJ.Y. under the mllroad Retirement Act will bg
       allowed SO percent of thoh' "ocllmlll.tou sick I,. m. Employees le8vlilg the service for olher reasons .ild
       thn.~~ (lI~mi.~~&.d (1)1' I":~II~C:   will forfulr Ilny IIn\H:cci ,c;lck leave. (Hmpl1asiA added)
       , Rule #21 Se,llon (n) Employeos will be granted «asonable leaves of absence when thoy con bo ,pared
       without interferencv to .:o;ervice. Except for physical dlsflbllfty 01' as othcrwlso provided i(1 the rulo. Icaves of
       flbsOIl~O   In   \)"C(;~~    or nlncly (90) clays III f\uy cnJelldill' ycmr 5\1(2\1 not bn grolnt(;d   un1cs~   by ngl'colllont
       between the omcor deslgnalC<t by Iho company and tho de.ignated rcpro!cnlallvo oftlte organiz;ltion.
       , Rille 1121 Sec lIon (d) An Employeo on leave who' ellgages In other employment shall forfeit his seniority
       and b.o considered Ollt of service, lIoless special .,.,..ngelllellls'shnll have been mnde with the offielot '
       grontlng the leave and the doslgnated reprosentatlvo ofth" org8nl7.3tion.
                                                                                                                                    2
